No. 20-710
In the
Supreme Court of the United States
.JOHN E. GROVE,

Petitioner,
V.

STEPHEN A. GROOME,
an individual, BUENA VISTA
SANITATION DISTRICT, and the
CHAFFEE COUNTY DISTRICT'
COURT,

Respondents.
On Petition For a Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit

NOTICE REQUIRED BY SUPREME COURT RULE 12.6
IS ATTACHED
COGSWELL LAW OFFICES
/s/ John M. Cogswell
.John M. Cogswell
Attorney for Petitioner
P.O. Box 1430
Buena Vista, CO 81211
(303) 887-3923
johnmcogswell@gmail.com
7300\23394\USSupCt\Not Rc9uircd by SC Rule 12.6

-1-

COGSWELL LAW OFFICE
PO llox ·1430
413 E. Main Streot, Unit 1 30
l3uena Vista, CO 812·11
Telephone: 71fJ-39!iA9O0

JOHN M. COGSWELL

Telocopier:

November 24, 2020

719~39!5--4905

Suzanno.CogsweHLaw@gmail.com

Via Electronic Filing and UPS
Scott S. Harris
Clerk of Court
Supreme Court of the United States
I First Street, N.E.
Washington, DC 20543
Re: John E. Grove v. Stephen A. Groome, 11n individual, Buena Vist11 Sanitation District,
and the Chciffee County District Court; No. 20-710 (U.S.)
Dear Mr. Harris:
I am counsel of record for petitioner in the above-captioned case. Pursuant to this
Court's Rule 12.6, I am writing to notify the Court of petitioner's belief that respondents
Stephen A. Groome and Buena Vista Sanitation District which were defendants in the trial court
and appellces in Tenth Circuit have no interest in the outcome of the petition for a writ of
certiorari.
The trial court dismissed the petitioner's claim against Judge Stephen A Groome because
it found he was entitled to immunity. The trial court dismissed the petitioner's claim against the
Buena Vista Sanitation District on the grounds there was no conspiracy as defined in Section
I 985(2) of the Civil Rights Act. The Tenth Circuit reversed the trial court's ruling as applied to
Judge Stephen A. Groome on the grounds that the dismissal should have been a dismissal
without prejudice for lack of jurisdiction based on the Rooker Feldman Doctrine despite the trial
court's failure to follow that doctrine after argument by the parties. The Tenth Circuit affirmed
the trial court's dismissal of the Buena Vista Sanitation District.
Respectfully submitted,
/s/ John M. Cogswell
John M. Cogswell
cc: See attached service list

7300/23394/Suprcme Court Clerk. I

Service List
Amy Colony
Senior Assistant AUorncy General
State of Colorado, Dept. of Law
Philip J. Weiser, Attorney General
1300 Broadway, I 0th Floor
Denver, CO 80203
(720) 508-6615
!~mail: amy.colony@_t:<l<Jg,g<iy
Counsel for Defendant-Appellee Stephen A. Groome

Amy Colony
Senior Assistant Attorney General
State of Colorado, Dept. of I,aw
Philip J. Weiser, Attorney General
1300 Broadway, I 0th Floor
Denver, CO 80203
(720) 508-6615
Email: amy.colony(i1}<:<i,1g,g9_y
Counsel for Defcndant-Appcllee Chaffee County District Court

Willian T. O'Connell, Ill
Katherine M.L. Pratt
Wells, Anderson & Race, LLC
1700 Broadway, Suite 1020
Denver, CO 80290
(303) 830-1212
Email: woconnell@warllc.con1
Email: kpratt@ilwarllc.com
Counsel for Defendant-Appellee Buena Vista Sanitation District

